r1_OCKLE

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Legal Briefs
Est. 1923

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com
No. 20-639
CALVARY CHAPEL DAYTON VALLEY,
Petitioner,
v.
STEVE SISOLAK, in his official capacity as Governor
of Nevada; AARON FORD, in his official capacity as
Attorney General of Nevada; FRANK HUNEWILL,
in his official capacity as Sheriff of Lyon County,
Respondents.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 10th day of December, 2020, send
out from Omaha, NE 2 package(s) containing 3 copies of the RESPONSE TO PETITION FOR A WRIT OF CERTIORARI
BEFORE JUDGMENT in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
BRIAN R. HARDY, ESQ.
Counsel of Record
KATHLEEN A. WILDE, ESQ.
MARQUIS AURBACH COFFING
10001 Park Run Drive
Las Vegas, NV 89145
(702) 382-0711
bhardy@maclaw.com
Counsel for Sheriff Frank Hunewill

Subscribed and sworn to before me this 10th day of December, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska
RENEE J. GOSS

.

My Comm. Exp. September 5, 2023

Notary Public

0,1Adeb-4.
Affiant

40392

Counsel for Petitioner, Calvary Chapel Dayton Valley:
DAVID A. CORTMAN, Counsel of Record
RORY GRAY
ALLIANCE DEFENDING FREEDOM
1000 Hurricane Shoals Rd. NE, Suite D-1100
Lawrenceville, GA 30043
(770) 339-0774
dcortman@ADFlegal.org
rgray@ADFlegal.org
Counsel for Respondents, Aaron Ford, In his official capacity as Attorney General of
Nevada; and Steve Sisolak, in his official capacity as Governor of Nevada:
AARON D. FORD
Attorney General
CRAIG A. NEWBY (Bar No. 8591)
Deputy Solicitor General
State of Nevada
Office of the Attorney General
555 E. Washington Avenue
Las Vegas, Nevada 89101
(702) 486-9246 (phone)
cnewby@ag.nv.gov

